NO.
IN THE

gii.prente Court of tbr
IYM TECHNOLOGIES LLC,
Petitioner,
v.
RPX CORPORATION AND ADVANCED MICRO DEVICES, INC.,
Respondents.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Federal Circuit
CERTIFICATE OF SERVICE
I hereby certify that on this 30th day of September, 2020, I caused three copies of
the Petition for a Writ of Certiorari to be served on the counsel of record as follows:
By overnight delivery and email to:
Richard Giunta
WOLF, GREENFIELD & SACKS, PC
600 Atlantic Avenue
Boston, MA 02210
(617) 646-8000
rgiunta@wolfgreenfield.com
Counsel for Respondents RPX Corporation
and Advanced Micro Devices, Inc.
I hereby certify that all parties required to be served have been served. I declare
under penalty of perjury that the foregoing is true and correct.
Executed on September 30, 2020.

ANDREA PACELLI
Counsel of Record
King & Wood Mallesons LLP
500 Fifth Avenue, 50th Floor
New York, New York 10110
212-319-4755
andrea.pacelli@us.kwm.com
Counsel for Petitioner

